                              CLOSEOUT FOR M-93040029

                                                 program manager,




#6 was associated with
paper presented no new research and did not cite NSF support.

         The complainant alleged that the subjects had improperly cited a reference in their review
paper. The subjects explained that the incorrect citation had been a clerical error, an error that they
corrected in a subsequent journal article. Trivial error is not misconduct in science. The complainant
also alleged that, in the subjects' review paper, they had failed to cite work accomplished by other
scientists. OIG determined that this allegation involved a disagreement over selection of papers to be
used as a reference associated with priority of discovery. A priority dispute such as this one is not
considered misconduct in science. This issue is best resolved in the scientific journals.

       In the process of determining that NSF support was not involved with the writing of the review
paper, OIG determined that there also was no substance to the complainant's allegations. This case
was closed.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                             Page 1 of 1
